U.S. Department of Justice
Office of the Solicitor General
Washington, D.C. 20530

November 6, 2019
Honorable Scott S. Harris
Clerk
Supreme Court of the United States
Washington, D.C. 2054
Re:

Harshad Shah v. United States of America,
S.CtNo. 19-330

Dear Mr. Harris:
The petition for a writ of certiorari in this case was filed on September 9, 2019. Although
the government waived its right to file a response, the Court has requested that a response be
filed. The government's response is now due on November 14, 2019.
We respectfully request, under Rule 30.4 of the rules of this Court, an extension of time
to and including December 16, 2019, within which to file the government's response.
This extension is requested to complete preparation of the government's response, which
was delayed because of the heavy press of earlier assigned cases to the attorneys handling this
matter.

Sincerely,
Noel J. Francisco
Solicitor General
cc: See Attached Service List

19-0330
SHAH, HARSHAD
USA

EZEKIEL E. CORTEZ
LAW OFFICE OF EZEKIEL E. CORTEZ
550 WEST C STREET
SUITE 790
SAN DIEGO, CA 92101
619-237-0309
LAWFORJUSTICE@GMAIL.COM

